Appendix A

TED STATES COURT OF AI
kLS
FOR THE EIGHTH CIRCUIT

No: 20-1174 .

Curtis Lee Dale
Petitioner - Appellant
v.
United States of America
Respondent - Appellee
Appeal from U.S. District Court for the Southern District of Iowa - Des Moines
(4:19-cv-00199-JAJ)
JUDGMENT

Before BENTON, WOLLMAN, and KOBES, Circuit Judges.
This appeal comes before the court on appellant's application for a certificate of
appealability. The court has carefully reviewed the original file of the district court, and the
application for a certificate of appealability is denied. The appeal is dismissed.
May 29, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
; /s/ Michael E. Cans
-r
. V.-'s ■

\

•

** '
.** '

Appendix B

Case 4:19-cv-

9g.jAJ Document 6 Filed.il/20/

.Jage 1 of .12
i

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF IOWA
CENTRAL DIVISION
CURTIS LEE DALE,
No. 4:19cv00199-JAJ

Petitioner.
vs.

ORDER
UNITED STATES OF AMERICA,
Respondent.
This matter comes before the court pursuant to petitioner’s July 1, 2019 Motion
Under 28 U.S.C. § 2255 to Vacate, Set Aside, or Correct Sentence.

[Diet. No. 1]

Pursuant to Rule 4- of the Rules Governing § 2255 Proceedings, the court conducts the
following initial review to determine whether any of the claims in the petition have
arguable merit, Finding that they do not, the court summarily dismisses the petition and
denies a certificate of appealability.
I. Procedural History
On June 22, 2016, the grand jury for the Southern District of Iowa returned a three
count Indictment charging the petitioner in Count 1 with a conspiracy to manufacture,
distribute and possess with intent to distribute cocaine base, cocaine hydrochloride and
heroin. In Count 2, he was charged with possession with intent to distribute cocaine base,
cocaine hydrochloride and heroin. Finally, in Count 3 , he was charged with being a felon
in possession of a firearm on June 2, 2016. United States v. Curtis Lee Dale, 3:16cr0033
(S.D. Iowa) at Dkt. 13. The ease arose from.an investigation by DEA Special Agent Jay
Bump conducted surveillance of two storage units rented in the names of
Bump.
associates of the petitioner and used by the petitioner to store controlled substances and a
firearm.

Bump used a GPS tracker on the petitioner’s automobile to determine that the

Case 4:19-

J199-JAJ Document 6 Filed 11/2

, Page 2 of 12

petitioner traveled to Chicago and stayed only twenty minutes before returning to the
storage locker in Davenport, Iowa.

From this and other information available to Agent

Bump, he believed that the petitioner had just gone to Chicago to purchase controlled
substances and then went to the storage locker in Davenport to store them prior to
distribution.

Bump secured search warrants for the storage lockers and the petitioner’s

residence. Upon seizing controlled substances and a firearm from a storage locker, Bump
and others arrested the petitioner and searched his residence.
The petitioner represented himself at trial with an assistant federal public defender
serving as standby counsel.

The petitioner was convicted at trial of all three counts.

[Dkt. 75] At sentencing, the petitioner was found to have a base offense level of 36 and
a criminal history category of IV under the United States Sentencing Guidelines. His
. sentencing guideline range of incarceration was 262 to 327 months. He received a 300
month sentence of incarceration on Counts 1 and 2 of the Indictment and 120 months on
Count 3, all sentences to run concurrently.
The petitioner appealed and his appeal was denied on March 19,2018.

[Dkt. 136]

On appeal, he challenged the denial of an evidentiary hearing on his motion to suppress
evidence as well as the court’s drug quantity calculation at sentencing.

The Court of

Appeals found that the petitioner failed to establish standing to search the rental units at
issue and noted that this court gave the petitioner an opportunity at trial to supplement his
earlier motion to suppress evidence. |~The motion was supplemented with the testimony
of the manager of the storage rental unit company. This witness, Sue Kramer, initially
made statements suggesting that DEA agents may have entered the storage units prior to
securing the search warrants. The hearing on this issue can be found in the trial transcript.
^ [Dkt. 130 beginning at p. 463]

The court found that Ms. Kramer’s.testimony concerning

the date on which she first saw locks on the storage units having been cut was not credible.
She was exceedingly confused on this issue.

■

2

Case 4:19-cv-c ,99-JAJ Document 6 Filed 11/20/: ~ page 3 of 12

n.

S 2255 Petition

A. The § 2255 Petition
In his petition* petitioner makes many claims, In Ground 1, he alleges that his
a motion for pretrial
attomey rendered ineffective assistance of counsel for failure to file
discovery, for failing to move to suppress evidence and for requesting a continuance of the
trial date against the petitioner’s instructions, He contends that his attorney waived a
preliminary hearing and detention hearing at which testimony of witnesses could have been
“locked in” for trial. [Finally, he contends that his attorney rendered ineffective assistance
of counsel for failing to object to the government’s request for an upward variance at
sentencing and failed to address his allegations ofprosecutorial misconduct]
In his second ground for relief, petitioner contends that his appellate attorney
rendered ineffective assistance of counsel for failing to raise a discovery issue, a challenge
d[alleged peijury by law enforcement officers^
the search warrants at issue in the case an
substances seized pursuant to the warrants?]
In Ground 3, he contends that his appellate attorney failed to properly argue that he
had standing to object to the searches of the rental units, He contends that because he had
keys to the units, that he had standing to object to the searches. Finally, he contends that
he has newly discovered evidence in that the renter of one of the storage units, Michael
Wills, now states that the petitioner had complete control over the storage unit at issue.
In Ground 4, the petitioner contends, that the jury was not properly instructed on the
felon in

possession of a firearm charge that the petitioner had to "“knowingly” possessed

the firearm.

Case'4:19-0v ~j199-JAJ

Document 6 Filed 11/2u_j Page 4 of 12

B. Standards for Relief Pursuant to Section 2255
Title 28, of the United States Code, section 2255, provides as follows:
A prisoner in custody under sentence of a court established by
Act of Congress claiming the right to be released upon the
ground (1) that the sentence was imposed in violation of the
Constitution or laws of the United States, or (2) that the court
was without jurisdiction to impose such sentence, or (3) that
the sentence was in excess of the maximum authorized by law,
or (4) is otherwise subject to collateral attack, may move the
court which imposed the sentence to vacate, set aside or correct
the sentence.
28 U.S.C. § 2255.

Section 2255 does not provide a remedy for “all claims errors m

conviction and sentencing.”

United State v. Addonizio, 442 U.S. 178, 185 (1979).

Rather, § 2255 is intended to redress only “fundamental defect[s] which inherently [result]
in a complete miscarriage of justice” and “omission[s] inconsistent with the rudimentary
demands of fair procedure.” Hill v. United States, 368 U.S. 424, 428 (1962), see also
United States v. Apfel, 97 F.3d 1074,1076 (8th Cir. 1996) (“Relief under 28 U.S.C. § 2255
is reserved for transgressions of constitutional rights and for a narrow range of injuries that
could not have been raised for the first time on direct appeal and, if uncorrected, would
result in a complete miscarriage of justice.”) (citing Poor Thunder v. United States, 810
F.2d 817, 821 (8th Cir. 1987)).

A § 2255 claim is a collateral challenge and not

interchangeable for a direct appeal, see United States v. Frady, 456 U.S. 152, 165 (1982),
and an error that could be reversed on direct appeal “will not necessarily support a collateral
attack on a final judgment.” Id.
C. Ineffective Assistance of Counsel Standard
The Sixth Amendment right to counsel exists “in order to protect the fundamental
right to a fair trial.” Strickland v. Washington, 466 U.S. 668, 684 (1984). The United
States Supreme Court reformulated the Strickland test for constitutionally ineffective
assistance of counsel in Lockhart v. Fretwelh
4

Case 4:19-cv-l

99-JAJ Document 6 Filed 11/20/1

Page 5 of 12

[T]he right to effective assistance of counsel is recognized not
for its own sake, but because of the effect it has on the ability
of the accused to receive a fair trial. Absent some effect of
challenged conduct on the reliability of the trial process, the
Sixth Amendment guarantee.is generally not- implicated.

j

506 U.S. 364, 369 (1993) {quoting United States v. Cronic, 466 U.S. 648, 658 (1984)).
The Eighth Circuit Court of Appeals applies the Lockhart test:
Counsel is constitutionally ineffective . . when: (1) counsel s
representation falls below an objective standard of
reasonableness; and (2) the errors are so prejudicial that the
adversarial balance between defense and prosecution is upset,
and the verdict is rendered suspect.
United States, 998 F.2d 609, 613 (8th Cm 1993) (citing Lockhart, 506 U.S. at
English v.
364). Where conduct has not prejudiced the movant, the court need not address the
reasonableness of that conduct. United States v. Williams, 994 F.2d 1287, 1291 (8th Cir.
1993); Siers v. Weber, 259 F.3d 969, 984 (8th Cir. 2001) (citing Strickland, 466 U.S. at
697) (courts need not reach the effectiveness of counsel if it is determined that no
prejudice resulted from counsel’s alleged deficiencies.”). To determine whether there is
prejudice, the court examines whether the result has been rendered “fundamentally unfair
or unreliable” as the result of counsel’s performance. Lockhart, 506 U.S. at 369.
Unreliability or unfairness does not result if the ineffectiveness of counsel does not deprive
the defendant of any substantive or procedural rights to which the law entitles him.
372.

Id. at

Prejudice does not exist unless “there is a reasonable probability that, but for

counsel’s ... errors, the result of the proceeding would have been different.”

Strickland,

466 U.S. at 694; Williams, 994 F.2d at 1291.
D.

Analysis

The petitioner’s first claim fails to state an arguable claim for relief.

He alleges

that his attorney improperly waived a preliminary and detention hearing for him and moved
for a continuance of the trial from August until October 2016 .without his consent..
5/

Case 4:19

J199-JAJ Document 6 Filed 11/2

/ Page 6 of 12

However, he does not allege any cognizable prejudice from these alleged errors.
Meaning, he does not allege that the outcome of his proceedings would have been different

V

with a preliminary/detention hearing or without the two month continuance. Itshould be j'C
noted/that even with the continuance, he was convicted three and one half months after the

/ ^ '■■cC'l

grand juryretumed the Indictment. ^ -7*^-/ t*//

^

With respect to the allegation concerning the failure to file a. motion to suppress, it
should be noted that the petitioner filed a motion to suppress that was denied by the court
without a hearing. The court then granted a hearing at trial based on the allegation that
law enforcement officers entered the storage locker prior to the issuance of the search
warrant.

These issues were appealed to the Court of Appeals and the appeal was denied.

The search warrants at issue for the defendant’s automobile, his residence and the
storage lockers were admitted into evidence at trial.

They can also be found at the

Southern District of Iowa’s electronic filing system at cases 3:16mj0038-41.

The

affidavit attached to each of these warrants are ten pages of single spaced allegations by
Agent Bump. In the affidavit, he meticulously detailed the status of his investigation and
{unquestionably provided probable cause for the searches requested^
Because the evidence sought to be suppressed was gathered pursuant to a search
warrant, the court employs the standard set forth iixlllinois v. Gates, 462 U.S. 213 (1983),
to determine the existence of probable cause.

It is well established that a warrant affidavit

[must show particular facts and circumstances in support of the existence of probable cause"]
sufficient to allow the issuing judicial officer to make an independent evaluation of the
application for a search warrant.

The duty of the judicial officer issuing a search warrant

is to make, a "practical, commonsense decision" whether a reasonable person would have
reason to suspect that evidence would be discovered, based on the totality of the
circumstances.

United States v. Peterson, 867 F.2d 1110,. 1113 (8th Cir. 1989).
6

V

f,/7
ff'tf

Case 4:19rcv-l. .99rJAJ.. Document 6 . Filed 11/20/1

Fage 7 of 12

Sufficient information must be presented to the issuing judge to allow that official to
determine probable cause; his action cannot_be_a, mere ratifi cation of the bare conclusion.
of others.

Gates, supra, at 239. ' However, it is clear that only the probability, and not a

prima facie showing, of criminal activity is required to establish probable cause. Gates,
supra, at 235.
This court does not review the sufficiency of an affidavit de novo. An issuing
judge's determination of probable cause should be paid great deference by reviewing
courts'. Gates, supra, at 236. The duty of the reviewing court is simply to ensure that
the issuing judge had a substantial basis for concluding that probable cause existed, Gates,
■ supra, at 238-39.
Even where probable cause is lacking, the court's inquiry does not end. Pursuant
to United States v. Leon, 468 U.S. 897 (1984), in the absence of an allegation that the
issuing judge abandoned a neutral and detached role, suppression is appropriate only if the
affiant was dishonest or reckless in preparing the affidavit or could not have harbored an
objectively reasonable belief in the existence of probable cause. In Leon, the United
States Supreme Court noted the strong preference for search warrants and stated that m
l a
doubtful or marginal case a search under a warrant may be sustainable where without one,
it would fall. Leon, supra, at 914.
Searches pursuant to a warrant will rarely require any deep
inquiry into reasonableness, . . , for a warrant-issued by a
magistrate normally suffices to establish that a law
enforcement officer has’ acted in good faith in conducting fhe
search. . . . Nevertheless, the officer's reliance on the
magistrate's probable-cause determination and on the technical
sufficiency of the warrant , he issues must be objectively
reasonable,
and it is clear in some circumstances the officer will have
no reasonable grounds for believing that the warrant was
properly issued. ' ;7 .

!

Case 4:19-0. ^j199-JAJ Document 6 Filed 11/20. ^ Page 8 of 12

Leon, supra, at 922-23.
Pursuant to Leon, suppression remains an appropriate remedy: (1) where the
magistrate issuing a warrant was misled by information ih an affidavit that the affiant knew
was false or would have known was false except for his reckless disregard for the truth,
Franks v. Delaware, 438 U.S. 154 (1978);

(2) where the issuing magistrate wholly

abandons the judicial role and becomes a "rubber stamp" for the government; ' (3) where
the officer relies on a warrant based on an affidavit so lacking in indicia of probable cause
as to render official belief in its existence entirely unreasonable; or (Q where the warrant
is so facially deficient in failing to particularize the place to be searched or the things to be
seized that the executing officers cannot reasonably presume it to be valid.

In Leon, the

remedy of suppression was not ordered despite the fact that the affidavit in that case did
not establish probable cause to search the residence injauestiom. Further, the information
was fatally stale and failed to properly establish the informant's credibility, The standard
announced in Leon is an objective standard.
Pursuant to the standards set forth above, the petitioner would lose a suppression
hearing even if he were to establish that he had standing to object to the searches.. The
affidavits unquestionably demonstrate probable cause for the searches, And even if some
court were to find that probable cause did not exist, the evidence seized pursuant to the
warrants would obviously be saved from suppression by the good faith exception to the
exclusionary rule found in Leon.
Finally, the petitioner contends in Ground 1 of his petition that his attorney failed to
object to the government’s motion for an upward variance at sentencing and failed to
address alleged prosecutorial misconduct and witness tampering.

The simple answer to

the first question is that his attorney did object to the upward variance, he objected to the
base offense level and enhancements under the sentencing guidelines and requested a
sentence at the mandatory minimum. [Dkt. Ill]

8

Case.4:19-cv-v

99-JAJ Document 6 Filed 11/20/-

Fage 9 of 12

i

The claims ofnrosecutorial misconduct are based on the petitioner s allegations of
witness tampering. In turn, these are based on the vigorous cross-examination of witness
Sue Kramer and a convincing demonstration that Ms. Kramer was completely uncertain
and confused as to the date on which she observed the locks on the storage units as having
been cut. The record affirmatively demonstrates that there was no prosecutorial
misconduct in this regard and that Ms. Kramer’s testimony in the particular described
above was completely unreliable.
In his second ground for relief, the petitioner contends that his appellate attorney
was ineffective for failing to claim prosecutorial misconduct in the withholding of
evidence, perjury by law enforcement officers and the witness tampering issue alleged
above. He also contends that appellate counsel was ineffective for failing to properly
raise his standing to object to the search of the storage units.
The petitioner cannot demonstrate that either his attorney was ineffective or that he
suffered prejudice in this regard. The reasons for this are adequately discussed above.
Finally, the petitioner’ s chain of custody issue found at page 20 of his brief is unavailing.
He contends that the agents seized controlled substances on June 2, 2016 and then placed
them in an evidence locker in Rock Island for four days before further processing them.
He does not allege facts demonstrating that there was a failure of chain of custody. This
ground is summarily dismissed.
In Ground 3 of his petition, the petitioner contends again that his appellate attorney
rendered ineffective assistance of counsel for failing to properly demonstrate his standing
to object to the searches at issue.
record set forth above.

Those issues have been refuted with evidence from the

He also contends that his appellate attorney was ineffective for

failing to challenge the fact that he was sentenced for more controlled substances than
found by the jury.

!
!
!

In its verdict rendered October 5,2016 [Dkt. 75], the jury unanimously

determined that the petitioner was responsible for more than 28 grams of cocaine base,
more than 500 grams of cocaine hydrochloride and more than 100 grams of heroin. This

Case 4:19-c

,^199-JAJ Document 6 Filed 11/2L. „ Page 10 of 12

was sufficient to establish a mandatory minimum term of incarceration of at least 120
months.

Pursuant to the sentencing guidelines, the court had an independent obligation

to find by a preponderance of the evidence the relevant conduct associated with his
offenses'. The petitioner has already challenged this issue on appeal, and has now failed
to allege facts demonstrating an arguable claim for relief.
At the end of his allegations in Ground 3, the petitioner alleges that the renter of one
of the storage units, Michael Wills, has stated that the petitioner had total control over that
storage unit, thereby allegedly giving the petitioner standing to object to its search.

The

issues concerning standing to search the rental unit have been adequately addressed above.
[Finally, in Ground 3, the petitioner appears to allege that he was taken to his
residence when arrested for the purpose of searching the residence incident to his arrest.
However, law enforcement officers had a warrant to search that residence.

See

3:16mj0038.
Ground 4 alleges that the jury was not properly instructed on the petitioner’s
“knowing” possession of a firearm in Count 3. The simple answer is that the final jury
instructions correctly stated that the petitioner had to have been found to knowingly possess
the firearm before he could be convicted of Count 3.

[Dkt. 70]

The instructions further

defined the knowledge requirement to require that the government prove that the petitioner
be aware of the act and not act through mistake, accident or other innocent reason.

The

court further defined actual and constructive as well as sole and joint possession for the
jury.

HI.

Certificate of Appealability

Before a petitioner can. appeal to the court of appeals from a final order in a habeas
corpus proceeding, the district court judge must issue a certificate of appealability. 28
U.S.C. § 2253(c)(1)(A).

Such Certificate may be issued if “the applicant has made a

substantial showing of the denial of a constitutional right,” id. §. 2253(c)(2), and indicates
“which specific issue or issues satisfy the [substantial] showing.” Id. § 2253(c)(3).
v*

f- I?

~ :

Case 4:19-cVrL

J9.-JAJ. Document s Filed 11/20/1

Jage 11 of 12

To meet the “substantial showing” standard, the petitioner must demonstrate that a
reasonable jurist would find the district court ruling on the constitutional claim debatable
v.
or wrong. Winfield v. Roper, 460 F.3d 1026, 1040 (8th Cir. 2006) (citing Tennard
Dretke, 542 U.S. 274,276,124 S.Ct. 2562,159 L.Ed.2d 384 (2004)); see also Randolph v.

Kemna, 276 F.3d 401,403 (8th Cir. 2002) (“the petitioner must ‘demonstrate that the issues.
are debatable among jurists of reason; that a court could resolve the issues [in a different
manner]; or that the questions are adequate to deserve encouragement to proceed further,
(quoting Barefoot v. Estelle, 463 U.S. 880, 893 n.l, 103 S.Ct. 3383, 77 L.Ed.2d 1090
(1983)) (alteration in original)). A “substantial showing” must be made for each issue
presented.. See Parkus v. Bowersox, 157 F.3d 1136, 1140 (8th Cir. 1998). The
certificate of appeal will then contain “an overview of the claims in the habeas petition and
a general assessment of their merits.” Miller-el v. Cockrellu, 537 U.S. 322, 336 (2003).
“This threshold inquiry does not require full consideration of the factual or legal bases
adduced in support of the claims. In fact, the statute forbids it.” Id. .Thus, a district
court may issue a certificate of appeal even if the court is not certain that “the appeal will
succeed... [because a certificate of appealability] will issue in some instances where there
is no certainty of ultimate relief.” Id. at 336-37 (citing Slack v. McDaniel, 539 U.S. 473,
120 S.Ct. 1595, 146 L.Ed.2d 542 (2000)).
Here, petitioner cannot show that reasonable jurists would disagree or debate
whether the issues presented should ha've had a. different outcome, and whether the issues
i
are adequate to deserve encouragement to proceed farther. See Barefoot, 463 U.S. at 893
n.4. The court denies a certificate of.appealability.
IV. Conclusion
The court finds that petitioner is not entitled to relief pursuant to 28 U.S.C. § 2255.
Upon the foregoing,
IT IS ORDERED that the-petitioner’s July 1, 2019 Petition for Writ of Habeas
IT'

https://ecf.ia

:M/ECF - U.S. District Court:iasd

-

' 8. dcn/cgi-bin/Dispatch .pl?103950185323074

Other Orders/Judgmenfs
4:19-cv-O0199-JAJ Dale v. United States of America
Paper recipients: 1

Mailing Labels ■
U.S. District Court
Southern District of Iowa

Notice of Electronic Filing
The following transaction was entered on 11/20/2019 at 3:39 PM CST and filed on 11/20/2019
Dale v. United States of America
Case Name:
4:19-cv-00l99-JAJ
■ Case Number:
-Filer: ■
Document Number: 6
Docket Test:
’
.
ORDER Dismissing [1] Motion to Vacate/Set Aside/Correct Sentence (2255} filed by Curtis
Lee Dale. The clerk shall enter judgment in favor of the respondent. No certificate of
appealability shall issue. Signed by Chief Judge John A. Jarvey on 11/20/2019. (mem)

4:19-cv-00199-JAJ Notice has been electronically mailed to:
4:19-cv-00199-JAJ Notice has been delivered by other means to:
Curtis Lee Dale #11165-026
ELKTON
FEDERAL CORRECTIONAL INSTITUTION
Inmate Mail/Parcels
P.O.BOX 10
LISBON OH 44432

•T

l?

,:c*

a

r\ m tr

A

1

\

!

Case 4:19-cv-w 199-JAJ Document 6 Filed 11/20/Page 12 of 12

Corpus [Dkt. No. 1] is dismissed in its entirety. The Clerk of Court shall enter judgment
in favor of the respondent.
. —-------- ~
IT IS FURTHER ORDERED that a certificate of appealability will not issue.
DATED this 20th day of November, 2019.

- ?c&£-n __

JOHN A. iARVEY, CKlcf Jfcdge / \
UNITED-STATES DISTRICT court
SOUTHERN DISTRICT OF IOWA

\

.. s''
■i. .

r

*

w - -rr

/v-

• >,

12 .

>-

1

Appendix C

U

ED STATES COURT OF API
FOR THE EIGHTH CIRCUIT

LS

No: 20-1174
Curtis Lee Dale
Appellant
v.
United States of America
Appellee

Appeal from U.S. District Court for the Southern District of Iowa - Des Moines
(4:19-cv-OO 199-JAJ)
ORDER
The petition for rehearing by the panel is denied.
July 29, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Appellate Case: 20-1174

Page: 1

Date Filed: 07/29/2020 Entry ID: 4939751

